HHS/OIG-Audit--"Allopathic Medicine Health Professions Student Loans Program at Indiana University - Purdue University, Bloomington, Indiana, (A-05-98-00015)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Allopathic Medicine Health Professions Student Loans Program at Indiana University
- Purdue University, Bloomington, Indiana, (A-05-98-00015)
July 31, 1998
Complete Text of Report is available in PDF format
(48 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our audit of the Allopathic Medicine
Health Professions Student Loans (HPSL) Program at Indiana University - Purdue
Univeristy (IU-PU). The HPSL program was implemented through the Public Health
Service Act. The Health Resources Services Administration has overall management
responsibilities for the program at the Federal level.
We determined that the University was appropriately using HPSL funds to provide
loans to eligible medical students and was appropriately administering the HPSL
funds. However, we are recommending that the University develop a means to identify
loans that are about to exceed the ten-year repayment period.
In a letter dated July 23, 1998, Indiana University concurred with our recommendations
and has begun implementing procedures to identify, at least semi-annually, uncollectible
loans. The full text of the University's comments is attached as an appendix
to this report.